    Office of Inspector General
    Report of Audit



             SUPERFUND



  Region 5 Oversight of PRP-lead
Remedial Design and Remedial Action




   Audit Report No. E1SGF8-05-0035-8100208




               August 17, 1998
Inspector General Division
 Conducting the Audit:       Northern Audit Division
                             Chicago, Illinois


Region Covered:              Region 5


Regional Office Involved:    Superfund Division
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF THE INSPECTOR GENERAL
                                   NORTHERN DIVISION
                              77 WEST JACKSON BOULEVARD
                                  CHICAGO, IL 60604-3590




                                          August 17, 1998

MEMORANDUM

SUBJECT:       Audit Report No. E1SGF8-05-0035-8100208
               Region 5 Oversight of PRP-lead Remedial
               Design and Remedial Action

FROM:          Anthony C. Carrollo /s/
               Divisional Inspector General for Audits
               Northern Division

TO:            David Ullrich
               Acting Regional Administrator
               Region 5

Attached is the final report on Region 5's oversight of PRP-lead remedial design and remedial
action. The purpose of the audit was to evaluate the effectiveness of Region 5's oversight of
responsible parties, and the impact of administrative reform on reducing oversight of cooperative
responsible parties. We found that Region 5 had effective oversight over responsible parties. In
FY 1998, Region 5 will be in a better position to evaluate the impact of the reduced oversight
reform because of the evaluation form it will prepare for sites in the reform.

This audit report contains findings that describe problems the Office of Inspector General has
identified and corrective actions the OIG recommends. This audit report represents the opinion of
the OIG and the findings contained in this audit report do not necessarily represent the final EPA
position. Final determinations on matters in this audit report will be made by EPA managers in
accordance with established EPA audit resolution procedures.

ACTION REQUIRED

In responding to the draft report, your office provided corrective actions, with milestone dates,
for each recommendation. Therefore, no further response is required, and we are closing this
report in our tracking system. Please track all corrective actions in the Management Audit
Tracking System.

We have no objections to the further release of this report to the public.
We appreciate the cooperation you and your staff provided during this review. Should you or
your staff have any questions, please contact Charles Allberry, Audit Manager, Northern Audit
Division, at 312-353-4222.
                                                      Region 5 Oversight of PRP-lead
                                                  Remedial Design and Remedial Action

                   EXECUTIVE SUMMARY

INTRODUCTION       The Office of Inspector General (OIG) performed an audit of
                   Region 5's management of potential responsible party (PRP) lead
                   remedial design and remedial action activities (remedial
                   construction projects). We selected this audit because PRPs
                   perform the majority of Superfund cleanup activities and many of
                   these are in the remedial design and action phases. When the PRPs
                   conduct the cleanup, the Environmental Protection Agency’s (EPA)
                   role is to ensure that the PRP complies with all applicable laws,
                   regulations, and requirements; and meets all performance standards
                   in the settlement agreement or order.

OBJECTIVES
                   The objectives of the audit were to determine, for PRP lead sites in
                   the remedial design and action phases:

                   C      if Region 5 was effectively overseeing responsible parties
                          and

                   C      the impact of the Superfund Administrative Reform on
                          reducing oversight for cooperative responsible parties.

RESULTS IN BRIEF
                   Region 5 provided effective oversight of PRPs. Regional project
                   managers (RPMs) ensured that remedies were being completed in
                   accordance with the record of decision and that time schedules in
                   the settlement agreement or order were met. The RPMs
                   accomplished effective oversight by establishing good working
                   relationships with the PRPs. This included open communication
                   and working through issues as they occurred, before they turned
                   into major problems. More frequent use of independent quality
                   assurance teams is one area where Region 5 could improve its
                   oversight of PRPs.

                   The impact of the reduced oversight administrative reform in
                   Region 5 was difficult to measure due to (a) the inherent nature of
                   the oversight process and (b) cost savings from reductions in


                                     i
                                                                     Report No. 8100208
                                                    Region 5 Oversight of PRP-lead
                                                Remedial Design and Remedial Action

                  oversight not being computed. As a result, for fiscal years (FY)
                  1996 and 1997, the Agency could not determine the extent of the
                  impact of this reform and whether it was successful in Region 5.
                  For FY 1998, the Agency has developed an evaluation form that,
                  when completed, may provide management with the information it
                  needs to evaluate the impact of the reform.

RECOMMENDATIONS
                  We recommend that the Acting Regional Administrator, Region 5,
                  take the following actions.

                  C      Require the Superfund division to (1) use independent
                         quality assurance teams for PRP lead remedial construction
                         projects, and (2) verify that independent quality assurance
                         teams are being used appropriately. When independent
                         quality assurance teams are not used, the reasons for not
                         using them should be documented.

                  C      Ensure the Superfund division yearly completes the
                         evaluation form for sites in the reduced oversight
                         administrative reform in order to compute costs savings.

AGENCY COMMENTS
AND ACTIONS       Region 5 agreed to take action to address the findings and
                  recommendations in the report.

                  C      Starting October 1, 1998, the RPM will evaluate the
                         appropriateness of using an independent construction
                         quality assurance team for each workplan received for PRP
                         remedial construction projects performed pursuant to an
                         EPA settlement or order. In any case where such a team
                         will not be used, the RPM will document the reasons in a
                         memorandum.

                  C      The evaluation form for sites in the reduced oversight
                         reform will be completed and submitted to EPA
                         Headquarters by October 10, 1998.

OIG EVALUATION

                                    ii
                                                                    Report No. 8100208
                                  Region 5 Oversight of PRP-lead
                              Remedial Design and Remedial Action

Region 5's actions, when completed, will address the findings and
recommendations in the report.




                 iii
                                                 Report No. 8100208
                                                                                      Region 5 Oversight of PRP-lead
                                                                                  Remedial Design and Remedial Action

                                               Table Of Contents
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v

CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1
              Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1
              Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
              Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               3

2        REGION 5'S OVERSIGHT OF PRPS WAS EFFECTIVE . . . . . . . . . . . . . . . . .                                       4
              Definition of Effective Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               4
              Examples of Effective Oversight . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 5
              Factors Contributing to Effective Oversight . . . . . . . . . . . . . . . . . . . . . . .                     6
              Area for Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            7
              Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    9
              Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          9
              Agency Comments and Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   9
              OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        9

3        IMPACT OF THE REDUCED OVERSIGHT REFORM WAS
           DIFFICULT TO MEASURE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 10
               Reduced Oversight Reform . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             10
               Limited Effect On Oversight Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . .                  11
               Cost Savings Not Computed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              11
               Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   12
               Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         13
               Agency Comments and Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  13
               OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       14




                                                                iv
                                                                                                            Report No. 8100208
                                                                                   Region 5 Oversight of PRP-lead
                                                                               Remedial Design and Remedial Action

EXHIBITS

1   Scope, Methodology, and Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . 15

2   Related OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

3   Issues Corrected During the Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDICES

1   Region 5 Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

2   Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25




                                                             v
                                                                                                          Report No. 8100208
                                                        Region 5 Oversight of PRP-lead
                                                    Remedial Design and Remedial Action



                               ABBREVIATIONS
CERCLA    Comprehensive Environmental Response, Compensation, and Liability Act

CERCLIS   Comprehensive Environmental Response, Compensation, and Liability
           Information System

EPA       Environmental Protection Agency

FY        Fiscal Year

OIG       Office of Inspector General

PRP       Potential Responsible Party

ROD       Record of Decision

RPM       Remedial Project Manager




                                        vi
                                                                      Report No. 8100208
                                                Region 5 Oversight of PRP-lead
                                            Remedial Design and Remedial Action

                      CHAPTER 1
                      Introduction

PURPOSE      The Office of Inspector General (OIG) performed an audit of
             Region 5's management of potential responsible party (PRP) lead
             remedial construction projects. We selected this audit because
             PRPs perform the majority of Superfund cleanup activities and
             many of these are in the remedial design and action phases. The
             objectives of the audit were to determine, for PRP lead sites in the
             remedial design and action phases:

             C      if Region 5 was effectively overseeing responsible parties
                    and

             C      the impact of the Superfund Administrative Reforms on
                    reducing oversight for cooperative responsible parties.

BACKGROUND
             Congress established the Superfund program in 1980 by passing the
             Comprehensive Environmental Response, Compensation, and
             Liability Act (CERCLA) and amended it in 1986 with the
             Superfund Amendments and Reauthorization Act. The Superfund
             program provides Federal cleanup authority and funds to address
             the problem of hazardous waste sites. The National Priorities List
             identifies the most serious sites for possible long term remedial
             response. As of September 30, 1997, there were 1,405 sites on the
             National Priorities List.

             After EPA determines the nature and extent of the contamination at
             a site, it announces the proposed method for cleaning up the site in
             the record of decision (ROD). The next two phases of the site
             cleanup are the remedial design and remedial action. During the
             remedial design, the technical specifications for the cleanup remedy
             and technologies are prepared. Remedial action involves the actual
             construction or implementation of the remedial design. As of
             September 30, 1997, about 43 percent of all Superfund sites were
             in the remedial design or action phases.



                               1
                                                                Report No. 8100208
                                                           Region 5 Oversight of PRP-lead
                                                       Remedial Design and Remedial Action

                         CERCLA requires EPA to take legal action against PRPs to ensure
                         that they contribute their equitable share toward cleaning up
                         Superfund sites. Through EPA’s enforcement program, PRPs now
                         perform about 70 percent of all cleanups. If a PRP elects to
                         perform the remedial design or action, they must do so in
                         accordance with a settlement agreement or in compliance with an
                         EPA issued unilateral administrative order. The settlement
                         agreement can be either an administrative order on consent, or
                         judicial consent decree. When the PRPs conduct the cleanup under
                         EPA oversight, EPA’s role is to ensure that the PRP complies will
                         all applicable laws, regulations, and requirements; and meets all
                         performance standards in the settlement agreement or order. For
                         sites where EPA is the lead agency enforcing the terms of the
                         agreement or order, the EPA Remedial Project Manager (RPM)
                         has the primary responsibility for overseeing the PRP. There are
                         some sites where a state environmental agency enforces the terms
                         of the agreement or order under state law.

                         At PRP lead sites, the RPM’s role is one of coordination and
                         monitoring. During remedial design, the RPM will review and
                         approve documents such as the work plan, remedial design report,
                         and construction quality assurance plan. During remedial action,
                         the RPM, most often with the assistance of an EPA contractor,
                         oversees the PRP’s construction and implementation of the remedy.
                         The level of oversight the RPM provides will depend upon the
                         requirements of the settlement agreement or order, complexity of
                         the remedy, past performance of the PRP, and qualifications of the
                         PRP’s design and construction teams.

Administrative Reforms   Since 1993, EPA has announced three sets of reform initiatives
                         designed to improve the Superfund program. The purpose of the
                         reforms were to assist state and local governments, communities,
                         and industries by making cleanups easier and promote economic
                         redevelopment at Superfund sites. The reforms were also to
                         protect public health and the environment by increasing the speed
                         and lowering the cost of cleanups, while promoting fairness for
                         stakeholders. The reduced oversight reform is one of the reforms
                         that impact how EPA oversees PRPs.



                                           2
                                                                          Report No. 8100208
                                                 Region 5 Oversight of PRP-lead
                                             Remedial Design and Remedial Action

              EPA designed the reduced oversight reform with the goal of
              decreasing the cost of EPA’s oversight of PRPs. As the Superfund
              program matured, PRPs had developed considerable experience in
              conducting cleanup activities. In addition, PRPs were working
              cooperatively with EPA during the cleanup and enforcement
              processes. In recognition of this, and to promote further
              cooperativeness, under this reform EPA rewards PRPs who have
              experience and are cooperative by significantly reducing oversight.
              EPA maintains sufficient oversight to ensure that the work is
              performed properly and in a timely manner.

SCOPE AND
METHODOLOGY   We performed our audit in accordance with the Government
              Auditing Standards, 1994 Revision, issued by the Comptroller
              General of the United States, and included such tests as we saw
              necessary to complete our objectives.

              For further details on the audit scope, methodology, and prior audit
              coverage, see exhibit 1.




                                3
                                                                Report No. 8100208
                                                      Region 5 Oversight of PRP-lead
                                                  Remedial Design and Remedial Action

                          CHAPTER 2
           Region 5's Oversight Of PRPs Was Effective

                   Region 5 provided effective oversight of PRPs. Regional project
                   managers (RPMs) ensured that remedies were being completed in
                   accordance with the record of decision (ROD) and that time
                   schedules in the settlement agreement or order were met. The
                   RPMs accomplished effective oversight by establishing good
                   working relationships with the PRPs. This included open
                   communication and working through issues as they occurred,
                   before they turned into major problems. More frequent use of
                   independent quality assurance teams is one area where Region 5
                   could improve its oversight of PRPs.

DEFINITION OF
EFFECTIVE          The objectives of PRP oversight are to ensure that the remedies
OVERSIGHT          the PRPs implement protect the public health and the environment
                   and that the remedial actions comply with the settlement agreement
                   or order. To accomplish this, the RPMs must ensure that PRPs (1)
                   implement the remedies described in the ROD and settlement
                   agreement or order and (2) meet time schedules in the settlement
                   agreement or order. Holding PRPs responsible and accountable for
                   the remedial actions is the ultimate goal of oversight. According to
                   Guidance on Oversight of PRP Performed RD/RA, dated February
                   14, 1990, EPA developed a focused approach to oversight of PRPs
                   consisting of two elements.

                   •      The RPMs should concentrate their efforts on certain key
                          documents and activities throughout the remedial
                          design/remedial action process. RPMs must use a high level
                          of oversight at the onset of the remedial design and again
                          when the remedial action is initiated. The amount of
                          oversight effort may be increased or decreased over time,
                          depending on various factors including the PRPs capabilities
                          and competence, the implementation of a construction
                          quality assurance program, and the nature of the remedy.




                                     4
                                                                     Report No. 8100208
                                                                           Region 5 Oversight of PRP-lead
                                                                       Remedial Design and Remedial Action

                                   •       The PRP should use an independent quality assurance team
                                           during construction. The independent quality assurance
                                           team, obtained by the PRP, provides a level of confidence to
                                           the PRP by selectively testing and inspecting the work of
                                           the construction contractor, and ensuring the construction
                                           quality control plan is effectively implemented. The quality
                                           assurance team must be completely independent of the
                                           construction contractor so the results of the quality
                                           assurance are unbiased and objective. This is standard
                                           practice in the private sector and will keep the responsibility
                                           for quality assurance with the PRP.

EXAMPLES OF
EFFECTIVE                          Region 5 provided effective oversight of PRPs. The RPMs
OVERSIGHT                          ensured that PRPs implemented remedies that protected the public
                                   health and environment and complied with the settlement agreement
                                   or order.1

                                   For the 13 sites selected for audit, the RPMs ensured that the
                                   remedies were being implemented in accordance with the ROD and
                                   settlement agreement or order. Where there were changes to the
                                   remedy, the changes were documented through ROD amendments
                                   or Explanation of Significant Differences reports. These changes
                                   resulted from collection of additional data, field investigations, and
                                   design studies that occurred after the ROD. The changes often
                                   resulted in a savings of time and money which was beneficial to the
                                   public health and environment. For example, at one site, new
                                   information was identified during the pre-design and design of the
                                   remedy which resulted in a ROD amendment. The changes
                                   included having off-site rather than on-site incineration, and doing
                                   excavation of the waste rather than bioremediation. Clean-up levels
                                   will still be met and the change in remedy will result in a quicker,
                                   cheaper clean-up. The RPM estimated that instead of taking until
                                   2026 for the bioremediation to be accomplished, the cleanup should
                                   be completed by the year 2000 with a cost savings of $30 million.


        1
          Of the 15 sites reviewed, 2 sites had on-going negotiations that impacted the implementation and
timeliness of the remedy. Therefore, we have excluded these 2 sites from our conclusions regarding EPA’s
oversight.

                                                        5
                                                                                             Report No. 8100208
                                                                          Region 5 Oversight of PRP-lead
                                                                      Remedial Design and Remedial Action

                                   For 11 of the 13 sites, the remedies were being completed in
                                   accordance with the time schedules in the settlement agreements or
                                   orders.2 For example, at one site, the PRP met the dates
                                   anticipated in the settlement agreement or order for both the
                                   remedial design and remedial action. The ROD anticipated that it
                                   would take five years for the PRPs to implement the remedy. The
                                   PRPs completed construction at this site in five years and three
                                   months.

FACTORS
CONTRIBUTING TO                    There were a couple factors that contributed to Region 5's effective
EFFECTIVE                          oversight of PRPs at the 13 sites in our review. They included
OVERSIGHT                          good working relationships between RPMs and the PRPs and early
                                   identification of problems.

                                   Generally, the RPMs had a good working relationship with the
                                   PRPs due to their rapport and communications.

                                   •       At one site, a good working relationship occurred because
                                           (1) the RPM thought the PRP was cooperative, (2) there
                                           was open communication between the parties, and (3) the
                                           PRP thought the RPM was competent and knowledgeable.

                                   •       According to the PRP at another site, the RPM was
                                           responsive to the PRP’s needs, and clearly communicated
                                           EPA’s views. The RPM listened to the PRP and took the
                                           PRP’s views and concerns into consideration.

                                   A second factor contributing to effective oversight was early
                                   identification of problems. This occurred through RPM site visits
                                   and the RPMs’ open communication with the PRPs and EPA’s on-
                                   site contractors. Early identification allowed the RPM and PRPs to
                                   resolve problems before implementation of the remedy or time
                                   schedules were affected.


        2
           At two sites, we had some concerns about the timeliness of the remedy implementation. At one of these
sites, we had an issue with the level of oversight. However, for that site, Region 5 has agreed to take action to
address our concerns. At the other site, the delays occurred a number of years ago. The exceptions we found were
isolated instances and not indicative of regional oversight.

                                                        6
                                                                                             Report No. 8100208
                                                 Region 5 Oversight of PRP-lead
                                             Remedial Design and Remedial Action

              •      At one site, the RPM made weekly visits to determine for
                     himself how the work was progressing and to resolve any
                     potential problems that might arise. He met with the PRP
                     group and their contractors. If a problem surfaced, they all
                     discussed it, and agreed to a solution that all the parties
                     could accept and still meet the requirements for the clean-
                     up. The weekly meeting fostered a sense of trust and
                     cooperation among the various parties involved in the work.
                     This cooperation went a long way in helping the PRP meet
                     its time frames for site clean-up.

              •      At another site, the RPM made site visits to resolve any
                     issues or problems that arose and that the EPA on-site
                     contractor or state representative brought to his attention.
                     The on-site contractor kept in daily phone contact with the
                     RPM, when needed, to inform him of the work being done
                     and any potential problems. The involved parties discussed
                     problems and resolved them early. In this way, major issues
                     never arose between the PRP and EPA.

AREA FOR
IMPROVEMENT   Region 5 could improve the quality of its oversight by increasing
              the use of independent quality assurance teams. For some sites, the
              personnel performing quality assurance were not independent. This
              was because the RPMs did not view the use of independent quality
              assurance teams as necessary to ensure appropriate cleanup. As a
              result, quality assurance could be reduced and EPA could be taking
              on extra work, responsibility, and risk.

              The February 1990, Guidance on Oversight of PRP Performed
              RD/RA, recognized the importance of using an independent quality
              assurance team during construction. That document identified the
              use of independent quality assurance teams as an important aspect
              of PRP oversight. The guidance does provide regions the flexibility
              to decide to increase their oversight if there is not an independent
              quality assurance team. However, the ultimate goal is to hold the
              PRP accountable.




                                7
                                                                Report No. 8100208
                                               Region 5 Oversight of PRP-lead
                                           Remedial Design and Remedial Action

             Use of independent quality assurance teams is (1) prevalent in EPA
             guidance and (2) standard practice in industry. The September
             1997 Draft EPA order, Policy and Program Requirements for the
             Mandatory Agency-wide Quality System, and industry standards,
             recommend the use of independent quality assurance teams.
             According to these documents, one element of a quality system is a
             quality assurance organization independent of the organization
             conducting environmentally-related measurements.

             Nine of the sites in our sample had construction quality assurance
             plans with sufficient information to evaluate the independence of
             the quality assurance contractor. Five of these nine lacked an
             independent quality assurance team. Based on the comments from
             the RPMs, they did not believe it was necessary that the quality
             assurance contractor be independent. For example, at one site the
             quality assurance team consisted of contractor employees that were
             from the same company. The RPM said that requiring separate,
             independent contractors would be overkill. At another site, where
             the PRP contractor was performing quality assurance, the RPM did
             not perceive this as a problem since EPA had its own on-site
             contractor and the RPM made site visits.

             The purpose of an independent quality assurance team is to provide
             confidence that the constructed remedy meets project requirements
             through testing and inspection of the construction contractor’s
             work. It is necessary for the quality assurance team to be
             completely independent of the construction contractor so the results
             of the quality assurance are unbiased and objective. If there is no
             independent quality assurance team, the PRP, and ultimately EPA
             may in some cases be unable to reasonably ensure that performance
             measures are met. Therefore, it is possible that EPA would need to
             expend a greater amount of time and resources on-site to achieve a
             reasonable confidence that the constructed remedy meets project
             requirements.




CONCLUSION



                               8
                                                               Report No. 8100208
                                                     Region 5 Oversight of PRP-lead
                                                 Remedial Design and Remedial Action

                  Region 5 provided effective oversight of PRPs. Effective oversight
                  resulted from good working relationships and open communication
                  between the RPM and PRP, and early identification of problems.
                  As a result, the cleanups are progressing on schedule. Region 5
                  could improve the effectiveness of its oversight by more frequently
                  using independent quality assurance teams.

RECOMMENDATION
                  We recommend that the Acting Regional Administrator, Region 5,
                  require Superfund division to (1) use independent quality assurance
                  teams for PRP lead remedial construction projects where
                  appropriate, and (2) verify that independent quality assurance teams
                  are being used appropriately. When independent quality assurance
                  teams are not used, the reasons for not using them should be
                  documented.

AGENCY COMMENTS
AND ACTIONS       Region 5 agreed with the recommendation and proposed that,
                  starting October 1, 1998, the RPM will evaluate the
                  appropriateness of using an independent construction quality
                  assurance team for each workplan received for PRP remedial
                  construction projects performed pursuant to an EPA settlement or
                  order. In performing this evaluation, the RPM will use EPA's
                  Guidance on Oversight of PRP Performed RD/RA dated February
                  14, 1990, and other applicable EPA regulations and guidances, as
                  references. In any case where such a team will not be used, the
                  RPM will document the reasons in a memorandum.

OIG EVALUATION
                  Region 5's actions, when completed, will address the finding and
                  recommendation in this chapter.




                                    9
                                                                    Report No. 8100208
                                                             Region 5 Oversight of PRP-lead
                                                         Remedial Design and Remedial Action

                            CHAPTER 3
               Impact Of The Reduced Oversight Reform
                       Was Difficult to Measure

                          The impact of the reduced oversight administrative reform in
                          Region 5 was difficult to measure due to (a) the inherent nature of
                          the oversight process and (b) cost savings from reductions in
                          oversight not being computed. Specifically,

                          C      the reform had only a limited effect on how Region 5
                                 determined the appropriate level of oversight at PRP
                                 cleanups.

                          C      Region 5 could not compute cost for savings from
                                 reductions for fiscal years (FY) 1996 and 1997 because
                                 management did not require RPMs to identify oversight
                                 activities that they reduced.

                          As a result, for FY 1996 and 1997, the Agency could not determine
                          the extent of the impact of this reform and whether it was
                          successful in Region 5. For FY 1998, the Agency has developed an
                          evaluation form that, when completed, may provide management
                          with the information it needs to evaluate the impact of the reform.

                          Region 5 was not the only region that had difficulty determining the
                          impact of this administrative reform. A recent OIG report also
                          found that Region 2 could not show actual reductions in oversight.
                          Details of this OIG report are included in exhibit 2.

REDUCED OVERSIGHT
REFORM            In July 1996, the Superfund program issued guidance to help the
                  regions identify those sites where PRPs were cooperative and
                  capable and, therefore, reductions in oversight were appropriate.
                  To implement this reform, the guidance called for the regions to
                  perform specific activities, including the following:

                          C      Use the criteria in the guidance to identify sites where
                                 reduced oversight was appropriate.

                                           10
                                                                             Report No. 8100208
                                                       Region 5 Oversight of PRP-lead
                                                   Remedial Design and Remedial Action


                    C      Maintain documentation showing the criteria used, including
                           the specific criteria set forth in the guidance, in determining
                           that each site was or was not appropriate for reduced
                           oversight.

                    C      Report estimates of how much oversight had been reduced
                           at sites during 1996.

LIMITED EFFECT ON
OVERSIGHT           The reduced oversight reform had only a limited effect on how
DECISIONS           Region 5 determined the appropriate level of oversight at PRP
                    cleanups. Some of the RPMs who had sites in this reform stated
                    that without this reform they would not have been comfortable
                    reducing oversight. However, other RPMs stated that this reform
                    had no impact on their decision to reduce oversight.

                    The inherent nature of the oversight process, in part, limited the
                    impact of this reform. Because each site, and each PRP is different,
                    Agency guidance does not establish a defined level of oversight that
                    must be used at every Superfund site. For example, Agency
                    guidance states that RPMs have the flexibility to adjust the level of
                    oversight as they see necessary. The guidance on reduced
                    oversight gave limiting the number of field visits based on PRP
                    competence as an example of reduction in oversight. However,
                    even before EPA issued the reduced oversight guidance, RPMs
                    could limit the number of site visits. Therefore, it is difficult to
                    determine whether the RPMs decision to reduce oversight was
                    because of this reform or whether they would have done so without
                    this reform.

COST SAVINGS NOT
COMPUTED            For FY 1996 and 1997, Region 5 could not document costs savings
                    attributed to this reform. While some RPMs could estimate cost
                    savings from reductions in oversight, there was no documentation
                    to support the estimates. Other RPMs did not estimate the cost
                    savings. This occurred because RPMs did not document the
                    activities that they reduced. For FY 1998, Region 5 will estimate
                    cost savings for all sites in this reform.

                                     11
                                                                       Report No. 8100208
                                                Region 5 Oversight of PRP-lead
                                            Remedial Design and Remedial Action

             In FY 1998, the Office of Site Remediation and Enforcement
             prepared an evaluation form that Region 5 will complete during the
             fourth quarter for all sites in the reform. The evaluation form
             includes several questions that are aimed at estimating costs savings
             from reductions in oversight. The questions include identification
             of the following:

             C      planned oversight costs before changes due to the reform,
             C      decisions the region made to reduce oversight prior to the
                    site’s inclusion in the reform, and
             C      reductions in oversight that were made as a result of
                    participation in the reform.

             With the completion of the evaluation forms, Region 5 management
             may have the information it needs to evaluate the success of this
             reform. This evaluation is important for several reasons.

             C      Throughout the Agency there is a greater emphasis on
                    measuring the results of EPA activities. While there are
                    many activities that EPA cannot measure, there are cost
                    savings associated with reductions in oversight that it can
                    estimate if the necessary information is collected.

             C      Information on the success of this reform at specific sites
                    will assist management in determining whether it should
                    reduce oversight at more sites.

CONCLUSION
             The Agency’s original goal for this reform was to reduce oversight
             costs at sites where the PRPs were cooperative and capable. While
             this reform did influence some RPMs to reduce oversight, the
             impact of the reform was limited and difficult to measure. The
             evaluation form the Agency prepared will assist Region 5 in
             computing the costs savings from this reform. While the Agency
             has modified the emphasis of this reform to maximizing the
             efficiency and effectiveness of PRP oversight, a significant factor,
             and the true measure of success for this reform, remains reduction
             in oversight costs.



                              12
                                                                Report No. 8100208
                                                    Region 5 Oversight of PRP-lead
                                                Remedial Design and Remedial Action

RECOMMENDATION
                  We recommend that the Acting Regional Administrator, Region 5,
                  ensure the Superfund division yearly completes the evaluation form
                  for sites in this reform in order to compute costs savings.

AGENCY COMMENTS
AND ACTIONS       During 1998, Region 5 took significant actions to improve the
                  management of this reform. During the year, Region 5 issued
                  several memorandums to Superfund staff explaining how the reform
                  was to be conducted. RPMs identified sites that should be included
                  in the reform and documented how oversight was reduced. For 15
                  sites, RPMs met with PRPs to discuss how the reform would be
                  implemented at the site. RPMs began to document the cost savings
                  that were achieved. Letters were also sent to the PRPs after they
                  were billed for oversight costs, describing what type of reduced
                  oversight activities took place.

                  In responding to the draft report, Region 5 proposed the following
                  schedule for annual reporting of oversight reductions:

                  July 28-30    Evaluation form will be discussed at the national
                                Superfund Division Directors meeting in Denver,
                                CO.

                  August        RPMs will fill out the evaluation form.

                  September     Regional contacts on reform will collect, analyze,
                                and transmit evaluations to EPA-Headquarters.

                  October 10    Regional evaluations due to EPA-Headquarters.




                                   13
                                                                   Report No. 8100208
                                                   Region 5 Oversight of PRP-lead
                                               Remedial Design and Remedial Action

OIG EVALUATION
                 Region 5's actions, when completed, will address the finding and
                 recommendation in this chapter.




                                  14
                                                                  Report No. 8100208
                                                   Region 5 Oversight of PRP-lead
                                               Remedial Design and Remedial Action

                                                                          Exhibit 1
                                                                         Page 1 of 3

       Scope, Methodology, and Prior Audit Coverage

SCOPE AND
METHODOLOGY     Our audit focused on Region 5's Superfund program and its
                oversight of PRP lead remedial construction projects. We
                performed our fieldwork from October 7, 1997 to June 17, 1998.

                As part of our review, we used the following EPA guidance as
                criteria for evaluating Region 5's activities:

                C      OSWER Directive 9355.5-01, Guidance on Oversight of
                       PRP Performed RD/RA, dated February 14, 1990.

                C      OSWER Directive 9200.4-15, Reducing Federal Oversight
                       at Superfund Sites with Cooperative and Capable Parties,
                       dated July 31, 1996.

                C      Special Account Reform Implementation Notebook, issued
                       by the Office of Site Remediation Enforcement, in March
                       1997.

                To evaluate Region 5's oversight of PRPs and the impact of the two
                reforms, we selected a sample of 15 PRP lead sites that had
                remedial design and action activities either (1) completed between
                October 1, 1995, and December 8, 1997 or (2) in progress as of
                December 8, 1997. In selecting the 15 sites, we selected 7 sites that
                were part of the reduced oversight reform and 2 sites that had
                special accounts as of December 8, 1997. We selected the sample
                based on information from CERCLIS as of December 8, 1997. We
                did not evaluate the controls related to CERCLIS and the adequacy
                of the controls were not critical to the results of our audit.




                                 15
                                                                  Report No. 8100208
                                   Region 5 Oversight of PRP-lead
                               Remedial Design and Remedial Action

                                                          Exhibit 1
                                                         Page 2 of 3

To determine if Region 5 was effectively overseeing PRPs, we
reviewed EPA’s files relating to the remedial design and action, and
discussed the site activities and EPA’s oversight with the RPM for
each site in our sample. As appropriate, we contacted the PRPs
and state officials to obtain their opinions on EPA’s oversight. We
also discussed with Region 5 management the controls that were in
place to ensure that RPMs were effectively overseeing PRPs.

To evaluate the impact of the reduced oversight reform, we
determined the following for the sites in our sample that were part
of the reform:

C      how the site was selected for the reform,
C      what activities were reduced,
C      whether reductions in oversight were appropriate, and
C      what documentation was maintained regarding cost savings
       from reductions in oversight.

Based on the sites in our sample, we expanded our review to all
sites that were part of the reduced oversight reform to determine
whether issues we identified in our sample existed at other sites.

During the audit, we dropped one objective on evaluating the
impact of the special account reform for two reasons. First, the
Agency has not completed the guidance on disbursing special
account funds to PRPs. Second, the reform was relatively new, and
there were only two remedial design and action sites that had
special accounts in Region 5. The enforcement negotiations at the
two sites had not reached a point where we could evaluate the
impact of the special account. Therefore, we did not pursue this
objective further during this audit, but referred what we had found
to another OIG office that was performing a detailed review of the
special account administrative reform.




                 16
                                                   Report No. 8100208
                                                 Region 5 Oversight of PRP-lead
                                             Remedial Design and Remedial Action

                                                                       Exhibit 1
                                                                      Page 3 of 3

              During the audit, Region 5 took action to correct several problems
              we identified. The problems, and actions Region 5 took, are
              described in exhibit 3.

              We issued position papers to the Director, Superfund Division,
              Region 5 between May 26 and June 9, 1998. We discussed the
              position papers with Superfund program personnel and considered
              their comments in preparing the draft report. The draft report was
              issued to the Acting Regional Administrator, Region 5, on June 29,
              1998. The Acting Regional Administrator responded on July 30,
              1998. The response was incorporated into the report, and included
              in Appendix 1.

PRIOR AUDIT
COVERAGE      One component of Region 5's oversight of PRPs is the billing of
              oversight costs. In March 1997, the OIG issued a report on Region
              5's Billing and Collection of Accounts Receivable (Report No.
              7100139). The audit found that for Superfund oversight billings,
              Region 5 did not (1) promptly send initial billings, (2) timely send
              follow-up notices on unpaid balances, or (3) include delinquent
              amounts on subsequent billings. As a result, the Superfund Trust
              Fund was not timely replenished.

              In responding to the audit report, Region 5 agreed to take a number
              of corrective action to improve the billing and collection of
              oversight costs. Follow-up audit work to these corrective actions
              was performed as part of the OIG’s annual audit of the Agency’s
              financial statements. As a result, we did not review the issue of
              billing of oversight costs during this audit.




                               17
                                                                Report No. 8100208
                                    Region 5 Oversight of PRP-lead
                                Remedial Design and Remedial Action

                                                            Exhibit 2
                                                           Page 1 of 1

RELATED OIG REPORTS

The OIG recently issued a draft report on Region 2's Billing of
Superfund Costs (Report no. E1SFF8-02-0007-8100206). As part
of the audit, the OIG evaluated Region 2's efforts to implement the
reduced oversight administrative reform. The report found that
Region 2 had identified six Superfund sites as candidates for
reduction in oversight. However, the Region had not reported
estimated oversight reductions.

The report noted that the impact of administrative reform was
difficult to assess for several reasons, including the lack of accurate
information regarding specific site reductions. There was also no
defined level of the amount of oversight EPA was to perform,
which made it difficult to identify what qualified as a reduction in
oversight. It was also difficult to quantify the value of activities
EPA did not perform.




                  18
                                                    Report No. 8100208
                                           Region 5 Oversight of PRP-lead
                                       Remedial Design and Remedial Action

                                                                   Exhibit 3
                                                                  Page 1 of 1

ISSUES CORRECTED DURING THE AUDIT

       During the audit, we identified two issues that Region 5 corrected
       during our fieldwork. One concerned the level of regional
       oversight at a specific site and the second was the accuracy of
       management list of sites in the reduced oversight reform.

       At 1 of 15 sites, we had concerns about the level of oversight
       Region 5 was providing. We discussed our concerns with
       management, and they agreed to assess the level of oversight that
       was needed and prepare a plan of action for continuing work at the
       site. We reviewed Region 5 assessment and plan of action and
       determined that the planned oversight would address our concerns.

       During our review we found Region 5's list of sites in this
       administrative reform was inaccurate. Region 5 continually updates
       the list of sites in this reform because of changing conditions, such
       as a remedial action being completed, or the relationship with the
       PRP’s has changed. However, for some of the sites that Region 5
       management identified as part of this reform, the RPMs stated that
       they were not aware that the site was part of the reform nor were
       they reducing oversight. To determine the extent to which the list
       was inaccurate, we evaluated a list Region 5 management provided
       us dated March 13, 1998. Of the 16 remedial design or remedial
       action sites on the list, two did not have reduced oversight. We
       also found two sites that RPMs stated they were reducing oversight
       and they considered part of this reform, but were not included on
       the March 13, 1998 list. After discussing this issue with Region 5,
       it took action to improve the controls over the accuracy of the list,
       including specific criteria that must be met before a site is identified
       as part of the reduced oversight reform.




                         19
                                                            Report No. 8100208
                                                                              Region 5 Oversight of PRP-lead
                                                                          Remedial Design and Remedial Action

                                                                                                             Appendix 1
                                                                                                             Page 1 of 5

             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                             REGION 5
                                   77 WEST JACKSON BOULEVARD
                                       CHICAGO, IL 60604-3590


                                                JUL 30 1998
                                                                                    REPLY TO THE ATTENTION OF:




MEMORANDUM

SUBJECT:          Draft Audit Report E1SGF8-05-0035
                  Region 5 Oversight of PRP-Lead Remedial
                  Design and Remedial Action

FROM:             David A. Ullrich
                  Acting Regional Administrator

TO:               Anthony C. Carrollo
                  Divisional Inspector General for Audits
                  Northern Division



Thank you for the opportunity to comment on the subject draft audit report.

Attached is the Region's response to the report. If you have any questions, please contact
William Muno, Director, Superfund Division at 3-9773.


Attachment


cc: Robert Springer, ARA for RMD
    William E. Muno, Director, Superfund Division
    Cyprian Ejiasa, Regional Comptroller
    Howard Levin, Acting Chief, Program Accounting & Analysis Section


        Recycled/Recyclable•Printed with Vegetable Oil Based Inks on 100 Recycled Paper (40% Postconsumer)




        Note: The original response was signed by Jerri-Anne Garl for David A. Ullrich.

                                                       20
                                                                                                     Report No. 8100208
                                                                     Region 5 Oversight of PRP-lead
                                                                 Remedial Design and Remedial Action

                                                                                              Appendix 1
                                                                                              Page 2 of 5


DATE:        JUL 23 1998

SUBJECT:          Draft Report No. ElSGF8-05-0035
                  Region 5 Oversight of PRP-Lead Remedial Design
                   and Remedial Action

FROM:             William E. Muno, Director
                  Superfund Division

TO:               Howard Levin
                  Regional Audit Coordinator (MF-10J)

We have reviewed the Draft Report referenced above, prepared by the Office of the Inspector
General for the Northern Division (OIGND), U.S. Environmental Protection Agency, and offer
our comments below. Our individual remarks follow an identification of the Section or Chapter
of the Draft Report that we are commenting upon.

Executive Summary

We acknowledge the two primary findings summarized in the Results in Brief subsection.
We agree with the first finding that Region 5 provided effective oversight of PRPs. In regard to
the second finding, we believe it would be more accurate to state that the “impact of the reduced
oversight administrative reform in Region 5 was difficult to measure”, rather than say the
“impact...was limited”. We will explain our reasoning for this comment later in this
memorandum.

Consistent with other Sections of the Report, we believe the first bullet point of the
Recommendation subsection should should be revised to read:

         “We recommend that the Acting Regional Administrator, Region 5,

         •        require the Superfund Division to (1) use independent quality assurance teams for
                  PRP-lead remedial construction projects where appropriate, and (2) verify that
                  independent quality assurance teams are being used appropriately. When
                  independent quality assurance teams are not used, the reasons for not using
                  them should be documented.”

This wording reflects the way this recommendation is articulated at the end of Chapter 2 of the
Draft Report, and clarifies that when such teams are used, they are only used during the
construction phase of a project.


                   Note: The original response was signed by William E. Muno.

                                                 21
                                                                                         Report No. 8100208
                                                                       Region 5 Oversight of PRP-lead
                                                                   Remedial Design and Remedial Action

                                                                                                Appendix 1
                                                                                                Page 3 of 5


Chapter 1, Introduction, Background

For clarity, we suggest portions of paragraphs 2 and 3 be written as follows, with our additions
italicized:

         “...If a PRP elects to perform the remedial design or action, they must do so in accordance
         with a settlement agreement or in compliance with an EPA-issued unilateral
         administrative order. The settlement agreement can be either an administrative order
         on consent, or a judicial consent decree. When the PRPs conduct the cleanup under
         EPA oversight, EPA's role is to ensure that the PRP complies with all applicable laws,
         regulations, and requirements; and meets all performance standards in the settlement
         agreement or order. For sites where EPA is the lead agency enforcing the terms of the
         agreement or order, the EPA Remedial Project Manager (RPM) has the primary
         responsibility for overseeing the PRP. There are some sites where a State environmental
         agency is enforcing the terms of an agreement or order under State law.

         “...During remedial action, the RPM, most often with the assistance of an EPA
         contractor, oversees the PRP's construction and imlementation of the remedy.
         The level of oversight the RPM provides will depend upon the requirements of
         the settlement agreement or order...”

Chapter 2

Anywhere the term “settlement agreement” is used, the phrase “or order” should be added
directly thereafter.

Examples of Effective Oversight

In paragraph 2, the first sentence should begin, “For the 13 sites selected for the audit...”

Similarly, paragraph 3 should begin, “For 11 of the 13 sites...”

Area for Improvement

Paragraph 1, third sentence should read, “This was because the RPMs did not view the use of
independent quality assurance teams as necessary to ensure an appropriate cleanup.”

Paragraph 5, third sentence should read, “If there is no independent quality assurance team, the
PRP, and ultimately EPA, may in some cases not be able to reasonably ensure that performance
measures are met.”




                                                 22
                                                                                         Report No. 8100208
                                                                   Region 5 Oversight of PRP-lead
                                                               Remedial Design and Remedial Action

                                                                                             Appendix 1
                                                                                             Page 4 of 5


Recommendation
As we commented on the Executive Summary Section, the only change to this text, for accuracy,
would be to substitute the phrase “remedial construction projects” for the phrase “remedial
design/remedial action sites”.
The Region 5 Superfund Division agrees with the Recommendation, using the substituted phrase
noted in our comment above.
Corrective Action and Timeframe
October 1, 1998 Each new workplan, received after this date, for remedial construction
                activities to be performed by a PRP pursuant to an EPA settlement
                agreement or order, will be evaluated by the RPM as to the
                appropriateness of utilizing an independent construction quality assurance
                team. In performing this evaluation, the RPM will use EPA's
                Guidance on Oversight of PRP Performed RD/RA dated
                February 14, 1990, and other applicable EPA regulations and guidances,
                as references. In any case where such a team will not be utilized, the RPM
                will document the reasons in a memorandum.
Chapter 3
We believe the title of Chapter 3 is misleading. A more appropriate title for the Chapter would
be “Impact of The Reduced Oversight Reform was Difficult to Measure” versus “Impact of The
Reduce Oversight Reform was Limited”. Starting in fiscal year 1998, Region 5 has been able to
document how reduced oversight has been implemented at those Superfund sites where there are
capable and cooperative PRPs. Several memos were issued to Superfund staff during fiscal year
1998 which explained how this reform was to be conducted. Remedial Project Managers
(RPMs) who had sites impacted by the reform, knew that in order to receive recognition for work
performed under the reform, three tasks needed to be accomplished. Briefly, the tasks were 1)
meet with the PRPs to inform them of the reduced oversight approach which was implemented at
the site; 2) issue the PRPs an oversight bill and 3) send the PRPs a letter which documents how
EPA reduced oversight activities during the billing period. It should be noted that the sites which
were addressed under this reform were sites that the RPMs themselves had decided to put
forward as reduced oversight candidates. Specifically, the RPMs knew about the reform, its
measures, and how the reform would impact their approach to implementing oversight. In
summary, to state that the reform had limited effect on oversight decisions does not properly
characterize the Region 5 Superfund Division's efforts in implementing this reform.
Cost Savings Not Computed
This section should include the following statements:

         “Starting in FY 1998, however, RPMs began to document the cost saving activities which



                                                23
                                                                                      Report No. 8100208
                                                                    Region 5 Oversight of PRP-lead
                                                                Remedial Design and Remedial Action

                                                                                              Appendix 1
                                                                                              Page 5 of 5

         took place at privately funded clean ups. RPMs met with PRPs from fifteen privately
         funded clean up sites to discuss how the reform would be implemented on a site specific
         basis. Additionally, letters were sent to the PRPs after they were billed, describing what
         type of reduced oversight activities took place during the billing period.”

These sentences should be inserted after the fourth sentence in the introductory paragraph of this
section. The Region 5 Superfund Division has put a tremendous amount of effort in FY 1998
into how it manages this reform. It is disappointing that the report does not reflect these efforts
and changes which have improved the documenting of the reform in FY 1998.

Conclusion

The first sentence of this section should read as follows:

         “The Agency's original goal for this reform was to reduce oversight costs at those sites
         where the PRPs have been capable and cooperative.”

The Draft Report fails to recognize that EPA's original intent for the reform was to target those
sites which have capable and cooperative PRPs. Once the regulated community understood that
EPA would reduce oversight costs for PRPs who were capable and cooperative, presumably the
message would circulate regarding the type of behavior EPA was trying to encourage among the
regulated community.

Recommendations

The Region 5 Superfund Division agrees with the Draft Report's recommendation to complete
the evaluation form for sites in the reform on an annual basis.

Corrective Action and Timeframe

The following schedule will be followed for the remainder of FY 1998 to implement the Draft
Report's recommendation for annual reporting of oversight cost reduction:

         July 28-30        Evaluation form will be discussed at the national Superfund Division
                           Directors meeting in Denver, CO.

         August            RPMs will fill out the evaluation form.

         September         Regional contacts on reform will collect, analyze and transmit evaluations
                           to EPA-Headquarters.

         October 10        Regional evaluations due to EPA-Headquarters.




                                                 24
                                                                                       Report No. 8100208
                                                             Region 5 Oversight of PRP-lead
                                                         Remedial Design and Remedial Action

                                                                                Appendix 2
                                                                                Page 1 of 1

                                     DISTRIBUTION

Region 5

Senior Leadership Team
Audit Followup Coordinator
Library

Headquarters

Assistant Administrator for Enforcement and Compliance Assurance (2201)
Assistant Administrator for Solid Waste and Emergency Response (5101)
Agency Followup Official (3101)
 Attn: Assistant Administrator, OARM
Agency Followup Coordinator (3304)
 Attn: Director, RMD
Headquarters Library (3404)

Office of Inspector General

Inspector General
GAO Issue Area Planner




                                            25
                                                                           Report No. 8100208
